               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Fiscal Year 2012 Financial Testing
    Compliance Oversight Plant Verified
          Drop Shipment Reviews

         Management Advisory Report




                                              January 30, 2013

Report Number FT-MA-13-005
                                                                       January 30, 2013

                                                 Fiscal Year 2012 Financial Testing
                                           Compliance Oversight Plant Verified Drop
                                                                Shipment Reviews

                                                         Report Number FT-MA-13-005


BACKGROUND:
The Postal Accountability and                inducted into mail processing without an
Enhancement Act of 2006 requires the         accurate and complete drop shipment
U.S. Postal Service to comply with           form. We conducted this review in
Section 404 of the Sarbanes-Oxley Act        support of the independent public
and report on the effectiveness of the       accounting firm’s reliance on
agency’s key internal controls over          management’s testing and overall audit
financial reporting. The Postal Service      opinions on the Postal Service’s
established the Financial Testing            financial statements and internal
Compliance group to test these key           controls over financial reporting.
financial controls at postal units.
                                             WHAT THE OIG FOUND:
Drop shipment is mail that a mailer or       We observed the testing of drop
authorized third party transports at the     shipment acceptance and verification
mailer’s expense. In return, the mailer      procedures at 25 of 198 sampled sites
receives discounted prices for               and determined that drop shipments
transporting the mail. Drop shipment         were properly tested and documented
mailers are required to present mail         and results were properly reported.
along with a completed drop shipment
form. Postal Service mail acceptance         WHAT THE OIG RECOMMENDED:
employees use the form to verify the         We did not identify any exceptions;
mail type, number of mailpieces, and         therefore, this report does not contain
total revenue and, once this is done and     recommendations.
revenue is recorded, signs and dates
the form. Mailers transport the verified     We communicated the results of our
mail to the destination mail processing      observations to the independent public
facility where mail processing               accounting firm and Postal Service
employees ensure the form is complete        management throughout the year. The
and reconciles it to the mail.               firm used the information to support its
                                             opinions on fiscal year 2012 Postal
Our objective was to evaluate whether        Service financial statements and
the Postal Service properly tested,          controls over drop shipment financial
documented, and reported their               reporting. Because we made no
examination of the key financial             recommendations, management chose
reporting control related to the drop        not to respond formally to this report.
shipment acceptance and verification
process. The key financial control for       Link to review the entire report.
drop shipments ensures that mail is not
January 30, 2013

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory Report – Fiscal Year 2012
                           Financial Testing Compliance Oversight Plant Verified Drop
                           Shipment Reviews (Report Number FT-MA-13-005)

This report presents the results of the U.S. Postal Service’s Fiscal Year 2012 Financial
Testing Compliance Oversight of Plant Verified Drop Shipment Reviews (Project
Number 12BD001FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Steven R. Phelps
    Janet F. Meddick
    Corporate Audit and Response Management
Fiscal Year 2012, Financial Testing Compliance Oversight                                                           FT-MA-13-005
 Plant Verified Drop Shipment Reviews



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 5
Fiscal Year 2012 Financial Testing Compliance Oversight                                                 FT-MA-13-005
 Plant Verified Drop Shipment Reviews



Introduction

This report presents the overall results of our fiscal year (FY) 2012 Financial Testing
Compliance (FTC) Oversight Plant Verified Drop Shipment (PVDS) Reviews (Project
Number 12BD001000). We conducted these oversight reviews to support the
independent public accounting (IPA) firm’s reliance on U.S. Postal Service’s
management testing of Sarbanes-Oxley Act (SOX) key financial controls and to provide
increased focus on the remediation of control failures in the field. Our overall objective
was to evaluate whether FTC properly tested, documented, and reported their
examination of key SOX financial reporting controls for the plant verified drop shipment
acceptance and verification process. This review addresses financial risk. See Appendix
A for additional information about this review.

Drop shipment mail is verified at origin by Postal Service employees assigned to either
a detached mail unit1 (DMU) at a mailer’s plant or a business mail entry unit (BMEU).
Drop shipment mailers are required to present mail along with a completed drop
shipment form.2 Postal Service mail acceptance employees use the form to verify the
mail type, number of mailpieces, and total revenue. Once this is done and revenue is
recorded at origin, the employee completes the form with the verification date and
signature. Mailers transport verified mail to the destination mail processing facility where
Postal Service mail processing employees ensure the form is complete and reconciled
to the mail being dropped. The key financial control for drop shipments ensures that
mail is not inducted into mail processing without an accurate and complete drop
shipment form. The form also serves as the basis to reconcile volume and document
load irregularities at the destination postal facility.

Conclusion

We observed the FTC group conducting tests of drop shipment acceptance and
verification procedures and reviewed their documented results at 25 of 198 sampled
sites during postal quarters (Q)3 1 through 3, FY 2012. We found that FTC analysts
properly tested, documented, and reported drop shipment acceptance and verification
procedures at all sampled sites. FTC personnel identified testing errors at two of the 25
observed sites and adequately documented their work. We agreed with the FTC results
for the sampled sites. We did not conduct observations during Q 4 since drop shipment
controls were generally functioning as designed.

We communicated our oversight results to management via weekly discussions and by
issuing quarterly interim reports. We also communicated our results to the IPA firm via

1
  Postal Service work areas or offices located at a business mailer's facility.
2
  Postal Service Form 8125, Plant Verified Drop Shipment (PVDS) Verification and Clearance.
3
  An accounting division of the fiscal year that consists of 3 monthly accounting periods that are based on calendar
months. Q 1 – October 1 through December 31; Q 2 – January 1 through March 31; Q 3 – April 1 through June 30;
and Q 4 – July 1 through September 30.
                                                              1
Fiscal Year 2012 Financial Testing Compliance Oversight                      FT-MA-13-005
 Plant Verified Drop Shipment Reviews


weekly discussions and quarterly capping spreadsheets. The IPA firm used the
information to support its opinions on FY 2012 Postal Service financial statements and
controls over financial reporting. We did not identify any exceptions; therefore, this
report does not contain recommendations. As a result, management chose not to
respond formally to this report. (See Appendix A for the list of test sites we observed
and interim reports issued.)




                                                    2
Fiscal Year 2012 Financial Testing Compliance Oversight                                                  FT-MA-13-005
 Plant Verified Drop Shipment Reviews



                                  Appendix A: Additional Information

Background

The Postal Accountability and Enhancement Act of 2006 required the Postal Service to
comply with Section 404 of SOX. To comply with Section 404 requirements, the Postal
Service must report on the effectiveness of the agency’s key internal controls over
financial reporting. It must submit an annual assessment to the Postal Regulatory
Commission who monitors and manages the Postal Service’s compliance with SOX.

This report addresses PVDS key financial controls testing at Postal Service facilities.
PVDS is a revenue protection process and is highly visible at all processing facilities.
Mailers are required to enter mail with a drop shipment form and employees must verify
and reconcile the form with the containers of mail being entered to ensure that all mail
on the drop shipment has been properly paid for and documented.

PVDS is a procedure that enables origin verification and postage payment for
shipments transported by the mailer from the mailer’s plant to destination postal
facilities for acceptance as mail. PVDS is typically used for mailings claiming a
destination entry discount or price.

The key internal control over financial reporting for PVDS includes ensuring the mail
volume received and verified at the originating postal facility matches the shipment
being dropped at the plant and that any irregularities are documented. Receiving
personnel also confirm that the shipment form is complete and accurate.4

Objective, Scope, and Methodology

The overall objective of our review was to evaluate whether the Postal Service properly
tested, documented, and reported their examination of key financial reporting controls
related to the drop shipment acceptance and verification process. We conducted these
oversight reviews in support of the IPA firm’s reliance on management’s testing and
overall audit opinions on the Postal Service’s financial statements and internal controls
over financial reporting.

To accomplish our objective, we observed FTC staff conducting PVDS key financial
control tests that included reconciling volume, documenting load irregularities, and
ensuring the form was complete and accurate for the required fields at 25 randomly
selected PVDS sites. In addition, we determined whether the FTC group provided
supporting documentation for the work performed. We issued interim reports directly to
Postal Service management each quarter to communicate the results of our reviews.



4
 The required fields are class of mail, processing category, number of pallets, origin Post Office, signature of
verifying employee or approved legend, round stamp, and entry office.

                                                           3
         Fiscal Year 2012 Financial Testing Compliance Oversight                                      FT-MA-13-005
          Plant Verified Drop Shipment Reviews


         Table 1 identifies the 25 sites we observed and the number of reviews we observed by
         quarter.

         Table 1: Number and Type of OIG Oversight Reviews of FTC SOX Testing
                                                                      Report
                          Sites Visited                               Number        Report Date          Quarter
    Chicago Metro Surface Hub                                     FI-MA-12-004   February 10, 2012        1
    Southern Connecticut Processing and Distribution Center
     (P&DC)
    Mid-Florida P&DC
    St. Paul P&DC                                                 FI-MA-12-006     May 16, 2012            2
    Anaheim P&DC
    Columbus General Mail Facility
    Cape Girardeau P&DC
    Michigan Metroplex P&DC
    Fort Lauderdale P&DC
    East Texas P&DC
    Harrisburg P&DC
    Albuquerque P&DC                                              FI-MA-12-013   August 17, 2012           3
    Eau Claire P&DC
    Pocatello P&DC
    Lafayette P&DC
    Westchester P&DC
    Miami P&DC
    Johnson City Processing and Distribution Facility
    Curseen-Morris P&DC
    Indianapolis Mail Processing Annex
    Jacksonville National Distribution Center
    Holt Annex Macon P&DC
    Knoxville Processing P&DC
    San Francisco P&DC
    Portland P&DC
Source: OIG analysis.

         We conducted this review from November 2011 through January 2013 in accordance
         with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
         for Inspection and Evaluation. We provided a draft copy of this report to management
         on January 2, 2013, and, because we did not make any recommendations,
         management chose not to respond formally to this report.

         We did not use computer generated data to conduct the oversight PVDS reviews;
         therefore, we did not assess the reliability of computer generated data. For these
         reviews, we examined drop shipment forms completed by mailers or mailers’ agents
         after the forms were signed and dated by Postal Service employees at DMUs and
         BMEUs.




                                                               4
Fiscal Year 2012 Financial Testing Compliance Oversight                          FT-MA-13-005
 Plant Verified Drop Shipment Reviews


Prior Audit Coverage

                                                            Final Report      Monetary
          Report Title                Report Number             Date           Impact
Fiscal Year 2011 Financial            FI-MA-12-003        January 20, 2012   None
Testing Compliance Oversight
Reviews
Report Results:
The FTC group made significant improvements in their testing of key SOX financial
reporting controls in FY 2011. However, opportunities existed to improve the quality of
conducting tests and documenting test results. Specifically, the FTC group did not
identify testing errors in four site reviews, did not perform steps in accordance with their
program in three site reviews, and did not adequately document their work in two site
reviews. As a result, OIG did not always agree with FTC site results. We did not make
any recommendations in the report but provided our observations to the IPA firm and
Postal Service management throughout the year.

Fiscal Year 2010 Quality of       FF-MA-11-001        January 3, 2011       None
Postal Service Financial
Testing and Compliance
Results
Report Results:
The FTC group did not report all exceptions they identified during their reviews, causing
their results to sometimes be inconsistent with the OIG’s results. We did not make any
recommendations in the report but provided our observations to the IPA firm and Postal
Service management throughout the year.




                                                    5
